 
 
 
 



                                  KPMG LLP
                                  2001 M Street, NW

                                  Washington, DC 20036 





                                     Independent Auditors’ Report
 
Secretary and Inspector General
U.S. Department of Labor:

We have audited the accompanying consolidated balance sheets of the U.S. Department of Labor (DOL) as of
September 30, 2009 and 2008; the related consolidated statements of net cost and changes in net position, and
combined statements of budgetary resources for the years then ended; and the statements of social insurance as of
September 30, 2009, 2008, 2007, and 2006 (hereinafter referred to as “consolidated financial statements”). The
objective of our audits was to express an opinion on the fair presentation of these consolidated financial statements.
In connection with our fiscal year 2009 audit, we also considered DOL’s internal control over financial reporting and
tested DOL’s compliance with certain provisions of applicable laws, regulations, contracts, and grant agreements that
could have a direct and material effect on these consolidated financial statements.

We have also examined DOL’s compliance with section 803a of the Federal Financial Management Improvement
Act of 1996 (FFMIA) as of September 30, 2009.

SUMMARY
As stated in our opinion on the consolidated financial statements, we concluded that DOL’s consolidated financial
statements present fairly, in all material respects, the financial position of DOL as of September 30, 2009 and 2008;
its net costs, changes in net position, and budgetary resources for the years then ended; and the financial condition of
its social insurance program as of September 30, 2009, 2008, 2007, and 2006, in conformity with U.S. generally
accepted accounting principles.

As discussed in our opinion on the consolidated financial statements, the statements of social insurance present the
actuarial present value of DOL’s future expenditures to be paid to or on behalf of participants, estimated future
income to be received from excise taxes, and estimated expenditures for administrative costs during a projection
period ending in 2040.

Also as discussed in our opinion on the consolidated financial statements, in fiscal year 2009, DOL adopted new
accounting and reporting requirements for fiduciary activities and changed the presentation of its statements of social
insurance.

Our consideration of internal control over financial reporting resulted in identifying certain deficiencies that we
consider to be significant deficiencies, as follows:

    1.   Lack of Adequate Controls over Access to Key Financial and Support Systems

    2. Weakness Noted over Payroll Accounting

    3. Lack of Segregation of Duties over Journal Entries

    4. Lack of Sufficient Controls over Financial Statement Preparation


                                         KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                         member firm of KPMG International, a Swiss cooperative.




                                                                                                       FY 2009 Performance and Accountability Report   151
Financial Section 
 
 
 
 
 




We did not identify any deficiencies in internal control over financial reporting that we consider to be material
weaknesses as defined in the Internal Control over Financial Reporting section of this report.

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant agreements
disclosed no instances of noncompliance and one other matter that are required to be reported herein under
Government Auditing Standards and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.

As stated in our opinion on DOL’s compliance with FFMIA, we concluded that DOL complied, in all material
respects, with the requirements of FFMIA as of September 30, 2009.

The following sections discuss our opinion on DOL’s consolidated financial statements; our consideration of DOL’s
internal control over financial reporting; our tests of DOL’s compliance with certain provisions of applicable laws,
regulations, contracts, and grant agreements; and management’s and our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheets of the U.S. Department of Labor as of September 30,
2009 and 2008; the related consolidated statements of net cost and changes in net position, and the combined
statements of budgetary resources for the years then ended; and the statements of social insurance as of September
30, 2009, 2008, 2007, and 2006. The accompanying statement of social insurance as of September 30, 2005 was not
audited by us and, accordingly, we do not express an opinion on it.

In our opinion, the consolidated financial statements referred to above present fairly, in all material respects, the
financial position of the U.S. Department of Labor as of September 30, 2009 and 2008; its net costs, changes in net
position, and budgetary resources for the years then ended; and the financial condition of its social insurance program
as of September 30, 2009, 2008, 2007, and 2006, in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1-W to the consolidated financial statements, the statements of social insurance present the
actuarial present value of DOL’s future expenditures to be paid to or on behalf of participants, estimated future
income to be received from excise taxes, and estimated expenditures for administrative costs during a projection
period ending in 2040. In preparing the statements of social insurance, management considers and selects
assumptions and data that it believes provide a reasonable basis for the assertions in the statements. However,
because of the large number of factors that affect the statement of social insurance and the fact that future events and
circumstances can not be known with certainty, there will be differences between the estimates in the statement of
social insurance and the actual results, and those differences may be material.

Also as discussed in Note 1-B to the consolidated financial statements, DOL changed its method of reporting
fiduciary activities to adopt the provisions of the Federal Accounting Standards Advisory Board’s Statement of
Federal Financial Accounting Standards (SFFAS) No. 31, Accounting for Fiduciary Activities, effective October 1,
2008.

Also as discussed in Note 1-W to the consolidated financial statements, in fiscal year 2009, DOL changed the
presentation of its statements of social insurance to remove estimated interest payments from the statements. DOL
revised its fiscal years 2005 through 2008 consolidated financial statements to conform to this fiscal year 2009
presentation.

The information in the Management’s Discussion and Analysis, Required Supplementary Information, and Required
Supplementary Stewardship Information sections is not a required part of the consolidated financial statements, but is


152   United States Department of Labor 
                                                                                           Independent Auditors’ Report 
                                                                                                                        
                                                                                                                        
                                                                                                                        
                                                                                                                        
 




supplementary information required by U.S. generally accepted accounting principles. We have applied certain
limited procedures, which consisted principally of inquiries of management regarding the methods of measurement
and presentation of this information. However, we did not audit this information and, accordingly, we express no
opinion on it.

The information in the Secretary’s Message, Performance Section, and Other Accompanying Information are
presented for purposes of additional analysis and are not required as part of the consolidated financial statements.
This information has not been subjected to auditing procedures and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING
Our consideration of the internal control over financial reporting was for the limited purpose described in the
Responsibilities section of this report and was not designed to identify all deficiencies in the internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A significant deficiency is a deficiency, or a combination of deficiencies, in internal
control that is less severe than a material weakness, yet important enough to merit attention by those charged with
governance. A material weakness is a deficiency, or combination of deficiencies, in internal control, such that there is
a reasonable possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis.

In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses as defined above. However, we identified certain deficiencies in internal control
over financial reporting that we consider to be significant deficiencies and that are described in Exhibit I.

We noted certain additional matters that we will report to management of DOL in a separate letter.

COMPLIANCE AND OTHER MATTERS

The results of our tests of compliance described in the Responsibilities section of this report, exclusive of those
referred to in FFMIA, disclosed no instances of noncompliance that are required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 07-04, as amended.

Other Matters. DOL is currently reviewing one incident regarding a potential violation of the Anti-deficiency Act. As
of the date of this report, no final noncompliance determination has been made.

We noted certain additional matters that we will report to management of DOL in a separate letter.

OPINION ON COMPLIANCE WITH FFMIA

DOL represented that, in accordance with the provisions and requirements of FFMIA, the Secretary of Labor
determined that the DOL’s financial management systems are in substantial compliance with FFMIA.

We have examined the U.S. Department of Labor’s compliance with section 803a of the Federal Financial
Management Improvement Act of 1996 as of September 30, 2009. Under section 803a of FFMIA, the U.S.
Department of Labor’s financial management systems are required to substantially comply with (1) Federal financial
management systems requirements, (2) applicable Federal accounting standards, and (3) the United States



                                                                     FY 2009 Performance and Accountability Report   153
Financial Section 
 
 
 
 
 




Government Standard General Ledger at the transaction level. We used OMB’s Revised Implementation Guidance
for the Federal Financial Management Improvement Act, dated January 4, 2001, to determine compliance.

In our opinion, the U.S. Department of Labor complied, in all material respects, with the aforementioned
requirements as of September 30, 2009.

RESPONSIBILITIES

Management’s Responsibilities. Management is responsible for the consolidated financial statements; establishing
and maintaining effective internal control; and complying with laws, regulations, contracts, and grant agreements
applicable to DOL.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2009 and 2008 consolidated
financial statements of DOL based on our audits. We conducted our audits in accordance with auditing standards
generally accepted in the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin No. 07-
04, as amended. Those standards and OMB Bulletin No. 07-04, as amended, require that we plan and perform the
audits to obtain reasonable assurance about whether the consolidated financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for designing
audit procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of DOL’s internal control over financial reporting. Accordingly, we express no such opinion.

An audit also includes:

•	     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated financial
       statements;
•	     Assessing the accounting principles used and significant estimates made by management; and
•	     Evaluating the overall consolidated financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2009 audit, we considered DOL’s internal control over financial reporting
by obtaining an understanding of DOL’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the consolidated financial statements. We did not test all controls relevant
to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective
of our audit was not to express an opinion on the effectiveness of DOL’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of DOL’s internal control over financial reporting.

As part of obtaining reasonable assurance about whether DOL’s fiscal year 2009 consolidated financial statements
are free of material misstatement, we performed tests of DOL’s compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and material effect on
the determination of the consolidated financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 07-04, as amended. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant
agreements applicable to DOL. However, providing an opinion on compliance with laws, regulations, contracts, and
grant agreements was not an objective of our audit and, accordingly, we do not express such an opinion.



154   United States Department of Labor 
                                                                                        Independent Auditors’ Report 
                                                                                                                     
                                                                                                                     
                                                                                                                     
                                                                                                                     
 




Our responsibility also included expressing an opinion on DOL’s compliance with FFMIA section 803a requirements
as of September 30, 2009, based on our examination. Our examination was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants and the standards applicable to
attestation engagements contained in Government Auditing Standards issued by the Comptroller General of the
United States, and accordingly, included examining, on a test basis, evidence about DOL’s compliance with the
requirements of FFMIA section 803a and performing such other procedures as we considered necessary in the
circumstances. We believe that our examination provides a reasonable basis for our opinion. Our examination does
not provide a legal determination on DOL’s compliance with specified requirements.

                                      ______________________________

DOL’s response to the findings identified in our audit is presented in Exhibit I. We did not audit DOL’s response
and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of DOL’s management, DOL’s Office of Inspector General,
OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.




November 15, 2009 




                                                                  FY 2009 Performance and Accountability Report   155
Financial Section 
 
Significant Deficiencies 
Exhibit I 
 

1.	 Lack of Adequate Controls over Access to Key Financial and Support Systems

    In fiscal years (FY) 2006 through 2008, we reported a significant deficiency relating to the lack of adequate
    controls over access to key financial and support systems.

    We recommended that management:

    •	 Identify key financial information technology (IT) controls and incorporate them into the U.S. Department of
       Labor’s (DOL) internal control and Office of Management and Budget (OMB) Circular No. A-123 testing
       process, to ensure that these controls are documented and operating effectively during the year.

    •	 Coordinate efforts among the DOL agencies to develop and/or enforce procedures and controls to address
       access control weaknesses in current financial management systems.

    During the FY 2008 audit, we noted that while DOL identified and tested key IT controls as part of its OMB
    Circular No. A-123 testing process, certain parts of the testing were performed concurrently with our IT testing
    and were not completed in time for us to assess the adequacy of the process. During our FY 2009 audit, we noted
    that DOL continued to identify and test key IT controls as part of its OMB Circular No. A-123 testing process,
    including follow-up on certain prior year IT findings and testing of the design and operating effectiveness of
    certain key current year controls during the year. Additionally, DOL provided the OMB Circular No. A-123
    testing results timely throughout the year.

    In response to the second recommendation, we noted that the Office of the Chief Information Officer (OCIO)
    updated Volume 1, Access Controls, of the DOL Computer Security Handbook in December 2008 and in May
    2009. The updates to this volume required agencies to be compliant with the latest standards set forth by the
    National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53, Recommended Security
    Controls for Federal Systems.

    However, we noted that 25 prior year findings related to access controls have not been corrected (4 in the Office
    of the Chief Financial Officer (OCFO), 9 in the Employment and Training Administration (ETA), 3 in the Office
    of the Assistant Secretary for Administration and Management (OASAM), and 9 in the Employment Standards
    Administration (ESA)). Additionally, we noted two prior year findings that were not corrected until the third and
    fourth quarters of FY 2009 (1 in ETA and 1 ESA). In FY 2009, we identified access control weaknesses that
    resulted in 11 new findings (1 in OCFO, 7 in ETA, 1 in OASAM, and 2 in ESA). Additionally, we issued one
    new finding that was subsequently corrected in the third quarter of FY 2009 (in ESA). The specific nature of
    these weaknesses, their causes, and the systems impacted by them has been communicated separately to
    management.

    In summary, we noted issues with account management, configuration management, and review of system audit
    logs in our FY 2009 testing of DOL’s IT systems. While these issues are less severe than a material weakness,
    we determined that they are important enough to merit attention by those charged with governance. As such, we
    believe that these new weaknesses and the uncorrected prior year control weaknesses represent a significant
    deficiency over access to key financial and support systems. Specifically, the following control weaknesses were
    present in one or more financial systems across various DOL agencies.

    • Account Management

         •	 Account management controls were not performed, such as incomplete or missing access request,
            modification, and termination forms;
         •	 User accounts are not timely removed for separated users;


156   United States Department of Labor 
                                                                                    Independent Auditors’ Report 
                                                                                                                    
                                                                                          Significant Deficiencies 
                                                                                                          Exhibit I 
                                                                                                                    
                                                                                                                    
   •	 Periodic user account reviews or re-certifications were not performed;
   •	 Generic accounts existed on a system without a proper business justification for approximately half of
      the fiscal year;
   •	 Access authorization, modification, termination, recertification, and periodic reviews of data center
      access were not consistent with policies; and
   •	 Certain terminated personnel had active system accounts, and in some cases, terminated employees
      accessed systems after their termination date.

• Configuration Management

   •	 Technical security standards and policies need to be updated and implemented to include stronger logical
      access security controls. Specifically, patches were not applied to systems in a timely manner;
      unnecessary services were not disabled; and access to sensitive files, directories, or software was not
      restricted;
   •	 Production servers were not configured in accordance with baseline configurations or to the most
      appropriate settings;
   •	 Password settings do not comply with the DOL Computer Security Handbook;
   •	 Inactive accounts were not disabled or deleted in a timely manner; and
   •	 Certain human resources personnel had access to create and approve personnel action requests on their
      own.

• Review of System Audit Logs

   •	 Audit logs monitoring user and administrator activity, changes to security profiles, remote access logs,
      access to sensitive directories, and failed login attempts are not reviewed, or documentation of audit log
      reviews was not maintained;
   •	 Audit log review procedures were not documented and finalized;
   •	 Audit logs were not secured against editing by system administrators; and
   •	 Application-level audit logs (e.g., significant transactions and changes to sensitive tables) were not
      proactively reviewed.

   These findings are a result of issues in the implementation and monitoring of Departmental procedures and
   controls. While the DOL agencies closed 17 prior year access control findings, they have not invested the
   necessary level of effort and resources to ensure that policies and procedures are designed and operating
   effectively. These access control weaknesses could result in users with inappropriate access to financial
   systems; inefficient processes; lack of completeness, accuracy, or integrity of financial data; and/or
   undetected unusual activity within financial systems.

   Based on these facts noted as part of our FY 2009 audit, we consider the recommendation related to testing
   key financial IT controls as part of the OMB Circular No. A-123 testing process closed. However, we
   consider the recommendation related to coordinating efforts among the DOL agencies to develop and/or
   enforce procedures and controls to address access control weaknesses in current financial management
   systems unresolved. To close this recommendation, the Chief Information Officer should (a) coordinate
   efforts among the DOL agencies to develop procedures and controls to address access control weaknesses in
   current financial management systems, (b) monitor the agencies’ progress to ensure that procedures and
   controls are appropriately implemented and maintained, and (c) ensure that sufficient resources are available
   to develop, implement, and monitor the procedures and controls that address access control weaknesses.




                                                              FY 2009 Performance and Accountability Report   157
Financial Section 
 
Significant Deficiencies 
Exhibit I 
 


    Management’s Response: The Office of the Assistant Secretary for Administration and Management (OASAM)
    does not concur with this determination. DOL management asserts DOL policies, procedures and standards for
    management, operational, and technical controls are adequate and collectively provide compound safeguards and
    redundant security measures to ensure the integrity of DOL financial systems. Further, the controls inherent to
    specific applications are sufficiently designed and effective to prevent or detect any unauthorized access to DOL
    financial systems.

    The report, as presented, does not adequately represent the operating environments of the systems audited, nor
    does it accurately relay the risk associated with the identified vulnerabilities. In general, risk levels are inflated
    based on the nature of the weaknesses noted. For example, an account which is disabled, but not deleted, does
    not represent a high risk as portrayed in the audit review. A disabled account does not permit unauthorized access
    to a system. Additionally, the findings do not represent a systemic deficiency which, when taken in aggregate,
    could adversely impact financial business processing.

    As mentioned in the FY 2008 management response to this issue, a Department-wide comprehensive strategy
    was established to address the identified conditions. The following milestones were achieved in FY 2009:
    •	 Revised access control policy to strengthen account management procedures by requiring agencies to
        conduct semiannual account reviews;
    •	 Developed FY 2009 Security Testing and Evaluation plan that included access control and configuration
        management focused quarterly reviews; and
    •	 Implemented automated configuration management tool, Secure Elements C5, to measure agency
        compliance with configuration management requirements.

    The implemented strategy above attests to management’s serious commitment to safeguard DOL information and
    information systems. In FY 2010, management will continue to deploy processes and procedures aimed at
    enhancing and strengthening the overall security posture of DOL’s computer security program.

    Auditor Response: The details of our FY 2009 IT findings and recommendations were provided to DOL
    management through the established Notification of Findings and Recommendations process. While we did not
    identify any individual finding as a significant deficiency, we evaluated the combination of certain findings, in
    accordance with auditing standards generally accepted in the United States of America, to conclude that a
    significant deficiency does exist, taking into consideration that certain findings, when assessed in aggregate,
    identified deficiencies in both detective and preventive access controls related to one or more financial systems.
    Although management stated that they do not concur with our recommendations, they plan on taking steps to
    address them. Therefore, these recommendations are considered resolved and open. FY 2010 audit procedures
    will determine whether these recommendations have been adequately addressed and can be considered closed.

2.	 Weakness Noted over Payroll Accounting

    During FYs 2006 through 2009, DOL used the U.S. Department of Agriculture’s (USDA) Office of Chief
    Financial Officer (OCFO)/National Finance Center (NFC) to process its payroll. For each pay period, DOL
    submitted to the NFC payroll information that included all DOL employees for the period, along with their hours
    worked, leave used, and other payroll related information for the period. The NFC processed the payroll for DOL
    each period and made available for download a Detail Pay and Deduct Register report for each DOL Human
    Resources office.

    In FY 2006, we noted that DOL did not utilize the Detail Pay and Deduct Register reports to perform reviews or
    reconciliations of data processed by the NFC, and no other controls were in place during the year to ensure that
    the information that was submitted to NFC via Time and Attendance records was reconciled to what was shown
    as paid in the Detail Pay and Deduct Register.

158   United States Department of Labor 
                                                                                          Independent Auditors’ Report 
                                                                                                                          
                                                                                                Significant Deficiencies 
                                                                                                                Exhibit I 
                                                                                                                          
                                                                                                                          
We recommended that management develop and implement policies and procedures to reconcile payroll
information provided to the NFC to the payroll information processed by the NFC each pay period. These
reconciliations should be documented, reviewed, approved by an appropriate supervisor, and maintained.

As part of DOL’s corrective action plan for FY 2007, the OCFO’s PeoplePower Task Force created a Time and
Attendance Reconciliation Report, and the DOL OCFO issued policies and procedures that stated that each DOL
Human Resource office should review the Time and Attendance Reconciliation Reports each pay period and
research and resolve differences identified. No offices that we tested in FY 2007 complied with the new OCFO
procedures, but two offices that we tested performed their own reconciliation procedures.

During FY 2008, the OCFO issued revised policies and procedures dated October 23, 2007, requiring a review of
the Time and Attendance Reconciliation Reports, and implemented these policies and procedures. The OCFO
also performed monitoring department-wide to ensure that the reviews were completed, documented, and
approved by an appropriate supervisor, and maintained. However, we noted that the reconciliation tested from
the Atlanta processing center did not contain a signature to validate the review. In addition, the Time and
Attendance Reconciliation Reports do not contain a space for the date of the review; therefore, the timeliness of
the reconciliations and certifications was not verifiable.

The policies and procedures issued and the related reviews and audits appeared to reconcile and certify time and
attendance records only. When we requested supporting documentation for the reviews of other NFC inputs and
outputs (e.g., Gross Pay and Benefit Withholdings), we noted that the five agencies selected for FY 2008
testwork were able to provide the Detail Pay and Deduct Register report; however, the agencies could not
provide evidence of review or recalculations of payroll-related items other than time and attendance. Therefore,
we could not conclude that such reviews and recalculations were completed.

In FY 2009, DOL issued revised policies and procedures with an effective date of July 24, 2009, to provide
guidance on the need for agencies to review payroll-related items other than time and attendance records. In
addition to the revised policies issued, OCFO management has represented that they have also implemented a
procedure to monitor the completion of the reviews of payroll-related items other than time and attendance. Since
the revised policies and procedures were not effective until the last quarter of FY 2009, our testwork focused on
the time and attendance reconciliation policies that were effective for the first three quarters (i.e., the majority) of
FY 2009, and we did not test the revised procedures implemented in July 2009.

We selected a sample of 8 time and attendance reconciliations from various agencies, none of which were
provided to us. We also noted that the OCFO had requested 38 sample items from the Human Resource offices to
monitor compliance with policies and procedures. The OCFO only received 6 of the 38 sample items requested.
As a result, we noted that insufficient evidence exists to determine that the preparation and review of payroll-
related items, including time and attendance, were completed.

The lack of compensating reconciliation controls around the NFC compensation outputs increases the risk that
payroll-related line items may be misstated due to errors in payroll processing by NFC.

Federal agencies that use external service providers, such as the NFC, should have controls in place to ensure the
accuracy of processing outputs. As stated by the USDA OIG in its FY 2009 Report No. 11401-30-FM, “The
accuracy and reliability of data processed by NFC and the resultant reports ultimately rests with the customer
agency and any compensating controls implemented by such agencies.”

OMB Circular No. 123, Management’s Responsibility for Internal Control, states, “Application control should be
designed to ensure that transactions are properly authorized and processed accurately and that the data is valid
and complete. Controls should be established at an application’s interfaces to verify inputs and outputs, such as
edit checks.”



                                                                   FY 2009 Performance and Accountability Report   159
Financial Section 
 
Significant Deficiencies 
Exhibit I 
 

    Additionally, per the Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
    Government, “Internal control should generally be designed to assure that ongoing monitoring occurs in the
    course of normal operations. It is performed continually and is ingrained in the agency’s operations. It includes
    regular management and supervisory activities, comparisons, reconciliations, and other actions people take in
    performing their duties.”

    Based on our FY 2009 audit results, we consider the recommendation we made in FY 2006 as resolved and
    open. To close this recommendation in the future, the DOL OCFO should (a) ensure that Human Resource
    offices are reconciling all payroll information, not only time and attendance records, provided to the NFC to the
    payroll information processed by the NFC for each pay period and (b) ensure that these reconciliations are
    documented, reviewed, and approved by an appropriate supervisor, and maintained.

    Management’s Response: Over the past two years, management has made considerable progress in the area of
    payroll processing. First, we implemented policies and procedures requiring reconciliation of time and
    attendance data. We also implemented procedures to reconcile payroll data provided by the National Finance
    Center (NFC) to that recorded in DOLAR$, another critical reconciliation of payroll information. In FY 2009,
    OCFO modified a payroll exception report developed in prior years, the Payroll/Time & Attendance
    Reconciliation Report. This report was improved in that it now lists both input and output discrepancies noted for
    each payroll period. The report is distributed to each Human Resources Office (HRO) on the Monday following
    each pay period. OCFO procedures require the HROs to review all discrepancies listed on the reports and
    complete a certification by the second Friday after each pay period. The certifications require signatures of the
    preparer and an HR supervisor, and discrepancies are required to be resolved by the end of the following pay
    period.

    In July 2009, OCFO initiated procedures to monitor HRO compliance with the new certification process. OCFO
    performed independent reviews for a sample of the certifications, ensuring that the certification forms were
    properly completed, approved, and included all information listed on the reconciliation reports. OCFO reviews
    also included a determination as to whether reported discrepancies were subsequently resolved and corrected.
    Since the implementation of these procedures, OCFO has been successful in ensuring that HROs are completing
    and documenting the reconciliations in a timely fashion. We believe that the recommendations made by the
    auditors are fully resolved, and anticipate closure of this finding in the FY 2010 audit.

    Auditor Response: As indicated above, DOL could not provide supporting documentation for any of the
    reconciliations we selected for our testing. However, since management addressed our recommendations by
    implementing additional procedures during the last quarter of FY 2009, we consider these recommendations
    resolved and open. FY 2010 audit procedures will determine whether these recommendations have been
    adequately addressed and can be considered closed.

3. Lack of Segregation of Duties over Journal Entries

    During the FY 2006 audit, we noted that accounting staff from all DOL agencies were able to prepare and enter
    journal entries into the Department of Labor Accounting and Related Systems (DOLAR$) without approval.
    Although the OCFO had developed Department-wide manual policies and procedures designed to ensure the
    segregation of journal entry preparation and approval authority in the second quarter of FY 2007, which was
    revised and reissued in the second quarter of FY 2008, the same lack of supporting documentation evidencing
    management review and approval was noted during the FYs 2007 and 2008 audits.

    During the course of the FYs 2006, 2007, and 2008 audits, we issued several recommendations to the OCFO,
    including the FY 2007 recommendation that management reconfigure DOLAR$ (and its successor system) so
    that journal entries entered into the DOLAR$ general ledger system (and its successor system) are required to be
    approved electronically by an individual other than the preparer before posting. We also recommended that:


160   United States Department of Labor 
                                                                                     Independent Auditors’ Report 
                                                                                                                     
                                                                                           Significant Deficiencies 
                                                                                                           Exhibit I 
                                                                                                                     
                                                                                                                     

•	 Agencies implement manual compensating review controls until system controls have been implemented.
•	 OCFO management monitor DOL employees’ compliance with the Department wide-policies and
   procedures in place for documenting the review of all journal entries.
•	 OCFO management design and implement detective controls that require supervisors to periodically generate
   and review activity reports that list all journal entries posted to DOLAR$.

During FY 2009, we tested a sample of 622 journal entries recorded from October 1, 2008 through September
30, 2009. For 55 of these journal entries, the OCFO did not provide support evidencing that they had been
reviewed by a supervisor or someone other than the preparer before they were posted to DOLAR$. DOL
management indicated that 24 of the 55 exceptions noted should not be subject to the OCFO policy since they are
related to recording commitments and sub-allocations and are subject to other review controls in the budget
office; however, no documentation was provided by the OCFO to support that these entries were reviewed by the
budget office staff. In addition, the OCFO written policy does not exempt these types of entries from the journal
entry review procedures.

Furthermore, we noted that 20 journal entries were posted to DOLAR$ prior to review and approval as evidenced
by the signature on the cover sheets of the journal entries.

We also noted during our review of DOL’s June 30, 2009 consolidated financial statements that the OCFO staff
made certain adjustments to the Combined Statement of Budgetary Resources (SBR) for a total of approximately
$1.3 billion without posting these adjustments into DOLAR$ in the form of journal entries (i.e., top-side
adjustments). No evidence existed to support that appropriate management personnel reviewed and approved
these adjustments. In addition, DOL’s current policies and procedures do not specifically cover top-side
adjustment entries.

By posting transactions and making adjustments to the consolidated financial statements without proper review
and approval and allowing individuals the authority to prepare and approve their own transactions in DOLAR$,
there is an increased risk that a material error would not be prevented or detected and corrected in a timely
manner. In addition, there is a risk that employees are not following policies and management is unaware of their
non-compliance.

In addition, OCFO management represented that the New Core Financial Management System (NCFMS), to be
implemented in January 2010 to replace DOLAR$, will require electronic approval by someone other than the
preparer before journal entries are posted. As a result, we were again informed that DOL does not plan to
implement the recommendation to reconfigure DOLAR$ so that journal entries entered into DOLAR$ are
approved electronically by an individual other than the preparer before posting.

Per GAO’s Standards of Internal Control in the Federal Government, “Key duties and responsibilities need to be
divided or segregated among different people to reduce the risk of error or fraud. This should include separating
the responsibilities for authorizing transactions, processing and recording them, reviewing the transactions, and
handling any related assets. No one individual should control all key aspects of a transaction or event.”

Because management provided timeframes to implement the new general ledger system that requires electronic
approval by someone other than the preparer before journal entries are posted, we consider the recommendation
we made in FY 2007 resolved and open. To close the recommendation, management must ensure that the
NCFMS is configured, upon implementation, so that journal entries entered into it are required to be approved
electronically by an individual other than the preparer.




                                                               FY 2009 Performance and Accountability Report   161
Financial Section 
 
Significant Deficiencies 
Exhibit I 
 

    Because OCFO management does not consistently monitor DOL employees’ compliance with the OCFO policies
    and procedures in place that require all journal entries to be properly prepared, supported, and approved before
    posting to DOLAR$ and that proper segregation of duties is in place related to the preparation and posting of
    journal entries, we consider the manual control recommendation made in FY 2006 as unresolved. To close this
    recommendation, management should (a) develop and implement procedures to monitor DOL agencies to
    determine they are in compliance with OCFO policies and procedures related to journal entries, (b) design and
    implement detective controls that require supervisors to periodically generate and review activity reports that list
    all journal entries posted to DOLAR$, and (c) revise the department-wide policies and procedures to require that
    all manual entries, including top-side adjustment entries, be documented and reviewed and approved by a
    supervisor or someone other than the preparer before the financial statements are adjusted. These controls should
    ensure that all journal entries and top-side adjustments that are posted are appropriate, supported, and
    documented.

    Management’s Response: With respect to existing policies and procedures over journal entries, we disagree with
    the auditor’s conclusion that prior year issues remain unresolved. OCFO has significantly improved the
    documentation and approval requirements over journal entries. Additional procedures were implemented in
    January 2009 to ensure that journal entries recorded in DOLAR$ are sufficiently reviewed and approved, and
    that adequate segregation of duties exists over the authorization, recording, and review and approval functions.
    During the year, OCFO conducted independent reviews of journal entries recorded by ETA, OJC, OCFO, and
    other agencies, and provided guidance to those agencies. With the recent policy revisions and other OCFO
    actions taken since this finding originated, we believe that OCFO has appropriate monitoring procedures in place
    to ensure that journal entries recorded by DOL agencies are subjected to sufficient segregation of duties and
    review and approval procedures.

    We understand that many of the “errors” described by the auditors pertain specifically to entries made by ETA to
    record commitments and sub-allocations. The auditors contend that these transactions are recorded in DOLAR$
    without proper review and approval or without appropriate segregation of duties. In fact, these transactions are
    initiated and authorized by different individuals prior to being recorded in DOLAR$, and are subjected to certain
    detective controls after recording to ensure accuracy. Commitments are recorded by the Budget Office only upon
    receipt of an EPS-generated document that records the initial request for funds and the subsequent approval by
    the program office. Sub-allocations are prepared by a budget analyst and are reviewed and approved by the
    Budget Officer prior to being recorded in DOLAR$. Subsequently, ETA’s Budget Office utilizes two reports
    which act as detective controls to ensure the accuracy and completeness of allocations and commitments
    recorded in DOLAR$. Since these transactions are initiated, authorized, recorded, and reviewed by different
    individuals, we believe that the segregation of duties is intact and that existing review procedures ensure that
    amounts recorded in DOLAR$ are accurate and complete.

    With respect to the new financial system, NCFMS, the system requires that the posting and approval functions
    for all journal entries be performed electronically and by separate individuals. All journal entries are held in
    suspense and are not recorded until electronic approval is received from the designated supervisor.

    Based on these facts, we believe that the FY 2006 recommendation should be considered resolved, and that this
    finding does not rise to the level of a significant deficiency. At most it should be considered a management
    advisory comment.

    Auditor Response: We believe that the results of our audit procedures support our conclusion that a significant
    deficiency exists in this area. As a result, we consider the system-related recommendation resolved and open
    and the remaining recommendations unresolved pending completion of a corrective action plan and timeframes
    for implementation.



162   United States Department of Labor 
                                                                                          Independent Auditors’ Report 
                                                                                                                          
                                                                                                Significant Deficiencies 
                                                                                                                Exhibit I 
                                                                                                                          
                                                                                                                          
4.	 Lack of Sufficient Controls over Financial Statement Preparation

   During our review of DOL’s June 30, 2009 and September 30, 2009 draft consolidated financial statements, we
   noted the following errors and omissions that were not detected by the OCFO’s review of the draft financial
   statements:
   1.	 The balance of distributed offsetting receipts reported in DOL’s SBR as of June 30, 2009 and September 30,
       2009 was understated by $22.5 billion and $197 million, respectively.
   2.	 Total unobligated balances available and unobligated balances not available reported in DOL’s SBR as of
       September 30, 2009 were misstated by $2.5 billion due to a classification error that caused this amount to be
       reported as unobligated balances not available instead of unobligated balances available.
   3.	 The OCFO removed estimated interest payments from the Statement of Social Insurance for fiscal year 2009
       and revised its fiscal years 2005 through 2008 consolidated financial statements to conform to this fiscal year
       2009 presentation. However, the OCFO did not include a footnote disclosure in DOL’s September 30, 2009
       draft consolidated financial statements to explain the changes made to the presentation of the statement.
   4.	 The earned revenue reported in Note 15 of the consolidated financial statements for one of DOL’s agencies
       was initially overstated by $44.7 million. This intra-departmental amount was incorrectly reported as earned
       revenue instead of a non-expenditure transfer. This error had no impact on the consolidated statements of net
       cost because it was eliminated during consolidation.
   5.	 Note 18D was initially incomplete as it did not include a reconciliation of distributed offsetting receipts from
       the SBR to the Budget of the United States Government.
   6.	 The unobligated balance available reported in Note 2 is understated by $151 million as of September 30,
       2009. This understatement is due to a classification error that is offset by overstatements of $69 million in
       obligated balance not yet disbursed and $82 million in unobligated balance unavailable. This classification
       error had no impact on the total Fund Balance with Treasury reported in Note 2.

   Except for condition no. 6 related to Fund Balance with Treasury, the above errors were subsequently corrected
   by management in the final FY 2009 consolidated financial statements.

   In addition, the OCFO did not complete the September 30, 2009 SBR to SF-133, Report on Budget Execution
   and Budgetary Resources (SF-133), reconciliation and research identified differences timely. The OCFO
   reconciliation was not completed until after the OCFO prepared two drafts of DOL’s consolidated financial
   statements.

   Furthermore, the OCFO did not provide us a complete set of DOL’s September 30, 2009 draft consolidated
   financial statements and trial balances in a timely manner.

   The above issues occurred because the OCFO did not perform a sufficiently detailed review of the consolidated
   financial statements to ensure that misstatements, errors, and omissions related to the statements, notes, required
   supplementary information, and required supplementary stewardship information were detected and corrected
   and that the draft financial statements were submitted timely. In addition, the U.S. Department of Labor Manual
   Series (DLMS) does not include specific guidance on the review procedures of the consolidated financial
   statements that would guide DOL supervisors during their reviews. Specifically related to condition no. 1, OCFO
   policy does not require the quarterly reconciliation of distributed offsetting receipts reported on DOL’s SBR to
   distributed offsetting receipts reported on the U.S. Department of the Treasury’s Quarterly Distributed Offsetting
   Receipts by Department Report. These issues resulted in the need to correct the consolidated financial statements
   prior to final submission, causing delays in the financial reporting process.



                                                                    FY 2009 Performance and Accountability Report   163
Financial Section 
 
Significant Deficiencies 
Exhibit I 
 

    U.S. Government Accountability Office’s (GAO), Standards for Internal Control in the Federal Government
    (Standards), states, “Internal control should generally be designed to assure that ongoing monitoring occurs in
    the course of normal operations. It is performed continually and is ingrained in the agency’s operations. It
    includes regular management and supervisory activities, comparisons, reconciliations, and other actions people
    take in performing their duties.”

    Office of Management and Budget (OMB) Circular No. A-123, Management’s Responsibility for Internal
    Control, states “The agency head must establish controls that reasonably ensure that obligations and costs are in
    compliance with applicable laws; funds, property, and other assets are safeguarded against waste, loss,
    unauthorized use, or misappropriation; and revenues and expenditures applicable to agency operations are
    properly recorded and accounted for to permit the preparation of accounts and reliable financial and statistical
    reports...”

    Statement of Federal Financial Accounting Concepts No.1, Objectives of Federal Financial Reporting, paragraph
    163 states, “Financial reports should be consistent over time; that is, once an accounting principle or reporting
    method is adopted, it should be used for all similar transactions and events unless there is good cause to change.”

    OMB Circular No. A-136, Financial Reporting Requirements, section II.4.9.34, discusses the required financial
    statement note that explains the differences between the SBR and the Budget of the United States Government.
    “At a minimum, agencies should display the material differences for comparable line items related to budgetary
    resources, obligations, distributed offsetting receipts and outlays.”

    We recommend that the Chief Financial Officer (a) implement procedures to require that OCFO staff reconcile
    the amount of distributed offsetting receipts reported on DOL’s quarterly SBR to distributed offsetting receipts
    reported on Treasury’s Quarterly Distributed Offsetting Receipts by Department Report, (b) ensure that OCFO
    personnel perform a more detailed review of all financial information in the Performance and Accountability
    Report (PAR) including financial statements, notes, supplementary information, and supplementary stewardship
    information, (c) complete the quarterly reconciliations of the SBR to SF-133, including the completion of
    documented supervisory reviews over these reconciliations, by a certain date that facilitates timely identification
    and correction of potential SBR misstatements. and (d) update DLMS to include guidance for DOL supervisors
    to follow during their financial statement reviews, including procedures for comparing financial data reported on
    the different statements and notes to ensure accuracy and consistency.

    Management’s Response: We believe that this finding overstates certain facts, and that the actual events that
    occurred do not warrant issuance of a significant deficiency. The quarterly and year-end financial statements are
    subjected to a draft and final submission process, and it is normal and appropriate for various analyses and
    reviews of draft financial statements to result in subsequent corrections and adjustments in the finals. At year-
    end, due to the tight deadlines for submission of the audit and year-end statements, the OCFO’s reviews of the
    draft financial statements typically overlap with those of the auditors, and we believe it overstates the facts to
    conclude that our processes would not have detected many of the issues identified in this finding. The OCFO has
    the right to make corrections to draft financial statements until the final opinion is issued by the independent
    auditors. Furthermore, the auditor was made aware of all corrections to financial statements in all drafts
    submitted.

    In regards to the offsetting receipts, OCFO does not concur with the auditor’s statement that reconciliations of
    distributed offsetting receipts are not performed and does not believe there were any delays in the financial
    reporting process caused by this issue. The $197 million understatement was a result of the attempt to verify and
    reconcile FMS reported amounts to amounts recorded in DOL’s general ledger. The understated amount quoted
    for June 30, 2009 is incorrect, a fact that the OCFO determined by subsequent reconciliation to the amount
    reported on the FMS website. FMS subsequently changed the amount reported for June 30, 2009. We also note


164   United States Department of Labor 
                                                                                        Independent Auditors’ Report 
                                                                                                                        
                                                                                              Significant Deficiencies 
                                                                                                              Exhibit I 
                                                                                                                        
                                                                                                                        
that OCFO was not made aware that FMS had established a website for distributed offsetting receipts until after
the June 30, 2009 unaudited interim statements were submitted to OMB.

As to the other matters mentioned by the auditors: (1) OCFO was aware of a discrepancy in unobligated balances
but did not include changes to draft financial statements until it was able to sufficiently investigate the cause and
accurately quantify the adjustment required; (2) the proposed changes for the Statement of Social Insurance were
provided to the auditor in May 2009, and the related disclosures were included in subsequent draft financial
statements; (3) intra-departmental transfers were originally recorded in accordance with the SF 132 presentation,
and were corrected after consultation with OMB to insure proper treatment; and (4) OCFO believes that entire
amount of distributed offsetting receipts was not material and, accordingly, Note 18D as presented in the original
draft was in accordance with OMB guidance. OMB Circular No. A-136, as cited by the auditors, only requires
disclosures of material differences.

While we do not concur with the auditor’s description of the facts or their resulting conclusions, we do
acknowledge that the time frames for financial reporting, especially at year end, put significant pressure on those
involved in preparation and review of the financial statements. We agree that enhancing certain processes, and
changing the frequency and/or timing of certain reconciliations, would alleviate some of the pressure and
improve timeliness. Therefore, we will review existing procedures utilized in the preparation and review of
quarterly and year-end financial statements, including the footnotes, and will identify areas in need of
improvement. We will also look at the numerous reviews and reconciliations currently performed by the OCFO
and other agencies, and will consider the need for increased frequency and stepped up time frames. Revised
procedures will be developed and implemented accordingly, and will be updated in the DLMS if necessary by
June 30, 2010.


Auditor Response: Although the OCFO stated that it does not concur with our comments, the OCFO will be
taking steps to address our recommendations. Therefore, we consider these recommendations resolved and
open. FY 2010 audit procedures will determine whether these recommendations have been adequately addressed
and can be considered closed.




                                                                  FY 2009 Performance and Accountability Report   165
